HHS/OIG-Audit--"Office of Inspector General's Partnership Plan -
State of Montana's Medicaid Third Party Liability Program, (A-07-00-01302)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Office of Inspector General's Partnership Plan-State of Montana's Medicaid
Third Party Liability Program," (A-07-00-01302)
April 17, 2000
Complete
Text of Report is available in PDF format (3.61 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report addresses the effectiveness of procedures used by Montana's
Department of Public Health and Human Services (DPHHS) and its Medicaid contractor
to ensure Medicaid is the payer of last resort. The audit was made by the Montana
Legislative Audit Division (LAD) as part of the Office of Inspector General's
partnership efforts with State auditors to expand audit coverage of the Medicaid
program. The LAD found that, overall, the State agency properly denied payment
for medical services that were the responsibility of third parties and appropriately
denied duplicate claims that were submitted for the same services, ensuring
that Medicaid was the payer of last resort. However, the LAD did note some
procedural weaknesses, and recommended that DPHHS establish policies to ensure
compliance with the State's statute requiring the recording of receivables
and disposition of uncollectible revenue and complete an analysis of the recovery
of Medicaid funds to determine if procedures used for recovery maximize collection
efforts. The DPHHS concurred with the recommendations.